                      CLOSEOUT FOR M9412004P


     This case was brought to our attention -
                                            -
                                            y
                                            b
a program director in the                         Program in the
Division of Atmos~heric S      c    s    h    a     d recommended
declination of a +oposal from 4   -   n           (Subject #1) of
the            Department at -6                 University.   The

program officer did noE notice that one review-raised substantial
ethical and legal questions that, in keeping with NSF policy,
should have been brought to the attention of O I G and should not
have been considered as part of the merit review of the proposal.
As a result, he included the review in question with the materials
he distributed to panel members prior to the panel review of
Subject #lls proposal and, after recommending that NSF decline the




-                                              -
proposal, sent a copy of the review to Subject #I.
      The review in question raisedthree issues suggesting possible
 misconduct in science or criminal activity: (1) were the subjects
 seeking duplicate funding for research that was simultaneously
 being proposed to NSF as part of a proposal to the Small Business
 Innovative Research program (f              , submitted by Dr. I  ,
           [Subject #21 under the auspices of                     [the
 company] and entitled              -
1-        3 ( 2 ) should the subjects have been more forthcoming about
 the relationship between the two proposals? (3) had Subject #1 made
 deliberately misleading misrepresentations of preliminary results
 in his proposal?
     O I G examined the two proposals. We determined that there was
extensive textual overlap between them, including overlap in the
proposed work.     We also determined that neither proposal made
explicit reference to the other, but that Subject #2's proposal
included Subject #1 as a consultant and made clear that it aimed to
develop the commercial potential of Subject #lls research. Because
the unacknowledged textual overlap raised the possibility of
plagiarism, we wrote to the subjects seeking to determine who
authored the overlapping text and under what circumstances it came
to be included in both proposals.
     With regard to the possibility that the subjects were seeking
duplicate funding, O I G learned that, before either proposal was
submitted to NSF, Subject #1 had discussed with the program officer
                            page 1 of 3                      M94-43
the possibility of submitting both a basic research proposal and a
proposal to develop the commercial potential of his existing
research findings. O I G decided that, having notified a responsible
NSF official orally that two closely related proposals might be
submitted to NSF, the subjects9 failure to make a second written
notification at the time of submission was not serious and could
therefore not be considered misconduct. O I G concluded, however,
that the subjects should have indicated in writing at the time the
second proposal was submitted that an overlapping proposal had been
submitted to another NSF program, and we wrote letters to the
subjects and the company president expressing this view.
     In Subject #lls reply to the reviews of his proposal that the
program officer sent to him, the subject addressed the issue of
whether his preliminary data were accurately represented.       In
response to doubts raised by the reviewer, the subject presented
credible explanations for why his data appeared to be at variance
with the findings of other scientists and for why he presented the
data comparisons that he did. O I G concluded that there was no
evidence that Subject #1 has misrepresented his data and that
whatever differences in interpretation there might be between
Subject #1 and the reviewer were instances of normal scientific
disputelandwere not. evidence of misconduct.
                      r




     Both subjects and the company president inqormed ; O I G 'that
Subject #2's proposal was written after Subject #i's proposal and
that Subject #1 had given permission for Subject #2 to incorporate
material from the earlier proposal into the later one "as
necessary." Because Subject #I was a collaborator on Subject #2's
project and had given permission for the incorporation of his own
work in Subject #2's text, O I G determined that it was within the
range of accepted practice for Subject #2 to incorporate this
material without citation to the original source.
     After the review containing allegations of misconduct was
mistakenly sent to Subject #1, both he and the president of the
company sent messages to the NSF program officer denying that they
had acted improperly and protesting that the two proposals were
significantly different from one another. Both also expressed
concern that prejudicial statements alleging misconduct be removed
from NSF program files. O I G explained to both of them that it is
NSF policy to remove such material from program files and that that
has now belatedly been done. From discussions with the program
officers responsible for handling the two proposals and from an
examination of the proposal reviews, O I G concluded that the program
officers had ample reason to decline both proposals on their
merits. Because we determined that the exclusion of inappropriate
material from the review process would not have affected the
program officers' recommendations, we chose not to recommend that
NSF reconsider these proposals.
     O I G concluded that there was no substance to concerns that the

                            page 2 of 3                       M94-43
subjects might have committed misconduct in this case,         This
inquiry is closed and no further action will be taken on this case.




                           page 3 of 3
